U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 30, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Mylan Laboratories Ltd. v. Janssen Pharmaceutica, N.V., No. 21-202
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 9,
2021. The government’s response is now due, after one extension, on October 12, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including November 2, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

21-0202
MYLAN LABORATORIES LTD.
JANSSEN PHARMACEUTICA, N.V., ET AL.

GINGER D. ANDERS
MUNGER, TOLLES & OLSON LLP
601 MASSACHUSETTS AVE., NW
SUITE 500E
WASHINGTON, DC 20001-5369
202-220-1100
GINGER.ANDERS@MTO.COM
JEREMY C. DOERRE
TILLMAN WRIGHT PLLC
3440 TORINGDON WAY
SUITE 310
CHARLOTTE, NC 28277
704-248-4883
JDOERRE@TI-LAW.COM
MATTHEW S. HELLMAN
JENNER & BLOCK LLP
1099 NEW YORK AVENUE, NW
SUITE 900
WASHINGTON , DC 20001-4412
202-639-6000
MHELLMAN@JENNER.COM
DEEPRO R. MUKERJEE
KATTEN MUCHIN ROSENMAN LLP
575 MADISON AVENUE
NEW YORK, NY 10022

ROBERT THOMAS SMITH
KATTEN MUCHIN ROSENMAN LLP
2900 K STREET NW
NORTH TOWER
SUITE 200
WASHINGTON, DC 2007-5118
202-625-3500
ROBERT.SMITH1@KATTENLAW.COM
DONALD B. VERRILLI
MUNGER, TOLLES & OLSON LLP
601 MASSACHUSETTS AVENUE NW
SUITE 500 E
WASHINGTON, DC 20001
202-220-1100
DONALD.VERRILLI@MTO.COM

